Report No. D-2009-051          February 9, 2009




       Controls Over Time and Attendance
            Reporting at the National
         Geospatial-Intelligence Agency
Additional Information and Copies
To obtain copies of this report, visit the Web site of the Department of Defense Inspector
General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
DCPS                          Defense Civilian Pay System
DFAS                          Defense Finance and Accounting Service
DISL                          Defense Intelligence Senior Level
NGA                           National Geospatial-Intelligence Agency
NI                            NGA Instruction
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DR IVE
                                ARLINGTON, VIRG INIA 22202- 4704



                                                                                  February 9, 2009


MEMORANDUM FOR DIRECTOR, NATIONAL GEOSPATIAL-INTELLIGENCE AGENCY


SUB.! ECT: Controls Over Time and Attendance Reporting at the National Geospatial-
           Intelligence Agency (Report No. 0-2009-051)

We are providing this report for your information and use. We considered management comments
on a draft ofthe repolt in preparing the final report.

Comments on the draft of this report conformed to the requirements of 000 Directive 7650.3 and
left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the coultesies extended to the staff Please direct questions to me at
(703) 601-5868.




                                            f~am~
                                            Patricia A. Marsh, CPA
                                            Assistant Inspector General
                                            Defense Business Operations
Table of Contents

Results in Brief                                             i

Introduction                                                 1

       Objectives                                            1
       Background                                            1
       Review of Internal Controls                           1

Finding A. Time and Attendance Reporting                     3


       Recommendations, Client Comments, and Our Response    7

Finding B. Overtime and Premium Pay                          9


       Recommendations, Client Comments, and Our Response   12

Appendix

       A. Scope and Methodology                             15
             Prior Coverage                                 16

Client Comments

       National Geospatial-Intelligence Agency              17
Introduction
Objectives
Our audit objective was to determine whether the National Geospatial-Intelligence
Agency (NGA) procedures and controls for processing and reporting civilian payroll
were effective and in accordance with applicable guidelines. We specifically focused on
time and attendance reporting and employees working large amounts of overtime.

Background
National Geospatial-Intelligence Agency
NGA is a DoD combat support agency and a member of the intelligence community. The
NGA mission is to provide timely, relevant, and accurate geospatial intelligence in
support of national security objectives. NGA geospatial intelligence products serve a
variety of military, civil, and international needs. Headquartered in Bethesda, Maryland,
NGA operates major facilities in Washington, D.C. and St. Louis, Missouri. NGA also
has support and liaison offices worldwide.

Payroll Roles and Responsibilities
NGA payroll transactions are processed by the Defense Finance and Accounting Service
using the Defense Civilian Pay System (DCPS). NGA employees prepare individual
paper timesheets, and supervisors verify the time and attendance data reported on the
employee timesheets. Official timekeepers input time and attendance data into DCPS.
The NGA Human Development Directorate utilizes and maintains a PeopleSoft database
that contains all employee information. PeopleSoft interfaces directly with DCPS to
provide employee data to compute pay amounts.

Payroll Guidance
The Government Accountability Office internal control guidance titled, “Maintaining
Effective Control Over Employee Time and Attendance Reporting,” January 2003,
defines the internal control objectives for time and attendance systems. DoD Regulation
7000.14-R, volume 8, “Civilian Pay Policies and Procedures,” June 2007, prescribes the
policies and procedures for DoD civilian payroll operations, including time and
attendance reporting, pay administration, and employee leave. In addition, NGA has
issued multiple instructions related to various civilian payroll issues.

Review of Internal Controls
We determined that material internal control weaknesses in the NGA time and attendance
reporting process exist as defined by DoD Instruction 5010.40, “Managers’ Internal
Control (MIC) Program Procedures,” January 4, 2006. Time and attendance transactions
were not properly documented, authorized, or reconciled to the official pay system. In
addition, controls were not effective to detect excessive and improper overtime and
premium pay charges. Ineffective internal controls over time and attendance reporting
results in increased risk of payroll fraud, abuse, and improper payments. Implementing
all recommendations in this report will improve controls over time and attendance
reporting. We will provide a copy of this report to the NGA official in charge of internal
controls.



                                            1
Finding A. Time and Attendance Reporting
The National Geospatial-Intelligence Agency (NGA) has not established adequate
controls related to time and attendance reporting. Our review of the payroll records for a
random sample of 30 NGA employees showed deficiencies in the NGA procedures for
documenting, authorizing, and reconciling time and attendance reports. Specifically,
NGA did not:

    •   ensure that time and attendance reports contained all required data elements or
        that employee work schedules were properly documented,

    •   enforce regulations requiring supervisors to approve time and attendance reports
        and authorize overtime and compensatory hours worked,

    •   require employees to attest to the accuracy of the hours and leave charges shown
        on their time and attendance reports, and

    •   identify and correct differences between the employee time and attendance reports
        and DCPS.

In addition, NGA did not ensure that all personnel responsible for approving and
processing time and attendance were adequately trained and kept informed about the
requirements of laws and regulations. Improved training of NGA timekeepers could have
prevented many of the deficiencies identified during this audit. Until these deficiencies
are corrected, NGA will have no assurance that payroll expenses and related time and
attendance information is reliable, increasing the risk for fraud and abuse.

Documentation, Authorization, and Reconciliation
We randomly selected a sample of 30 employees who were reported in the payroll
records on October 31, 2007, to determine whether their time and attendance reports were
adequately documented, appropriately authorized, and properly reconciled to DCPS. For
the 30 employees in our sample, we reviewed the time and attendance reports for
8 biweekly pay periods, beginning August 4, 2007, and ending November 10, 2007. 1
Our review of the available documentation showed that NGA has not established
adequate controls related to time and attendance reporting. NGA must make significant
efforts to improve the reliability of time and attendance information and reduce the
potential for fraud and abuse.

Work Schedules
NGA Instruction 1422.1R10, “Work Hours and Overtime,” May 11, 2005, states that
managers and supervisors must establish, in writing, employees’ work schedules,
including hours of duty, shift tour of duty, alternative work schedules, and overtime.
However, NGA could not provide a work schedule for any of the 30 employees in our
sample. The lack of an approved work schedule made it impossible to determine whether
an employee was entitled to the various premium pay categories. Premium pay includes


1
We received only seven time and attendance reports for one of the employees in our sample. Therefore,
we reviewed a total of 239 time and attendance reports.


                                                   3
overtime, Sunday premium, holiday pay, and night differential. (See Finding B for our
recommendation related to employee work schedules.)

Information on Timesheets
NGA had not implemented an agency-wide standardized timesheet. As a result, the
timesheet formats for the 30 employees in our sample varied from employee to employee.
We would not consider the lack of a standardized timesheet to be a deficiency if the
various timesheets used throughout NGA had consistently included the minimum
information required by DoD Regulation 7000.14-R. However, only 6 of the 30
employees in our sample included all required information on their timesheets. The
timesheets for the remaining 24 employees were missing at least one required element.
The following table illustrates several elements required by DoD Regulation 7000.14-R,
as well as the number of employees in our sample whose timesheets did not contain the
required element.

                Table 1. Timesheets Missing Required Information
 Missing Information                                    Number of Employees
 Employee Name and Social Security Number                         9
 Number of Hours Worked by Day and Total                         12
 Supporting Documentation for Absences                           10
 Handwritten Signature or Automated Approval Code of an
 Authorizing Official                                            14

The minimum information required represents the basic requirements necessary for
timekeepers to accurately record an employee’s time in DCPS and verify that the time
and attendance data were properly authorized. NGA is planning on implementing an
electronic time and attendance system, which should help ensure that timesheets include
all required information. However, NGA does not expect full implementation of the
system until March 2009. In the interim, NGA should notify all supervisors and
timekeepers of the minimum information required on each timesheet.

Supervisory Review and Approval
NGA has not developed and implemented effective procedures for reviewing and
approving time and attendance reports. Supervisory approval is a key part of ensuring
the propriety of time and attendance reports. Such approval indicates that time and
attendance are, to the best of the approving official’s knowledge, properly recorded and
in compliance with applicable legal requirements. DoD Regulation 7000.14-R requires
that supervisors review and approve time and attendance reports and other supporting
documents. However, NGA supervisors did not always approve time and attendance
reports for 14 of the 30 employees in our sample (71 of the 239 timesheets we reviewed
were not approved).

Employee Attestations
DoD Regulation 7000.14-R requires that timekeepers ensure that employees have
manually or electronically attested to the accuracy of hours reported on their timesheets.
However, the timekeepers for 11 of the 30 employees (75 of the 239 timesheets
reviewed) in our sample did not ensure that proper employee attestations were made
before processing the employees’ payroll transactions. Proper attestations make
employees accountable for the accuracy of hours reported on their time and attendance



                                             4
reports, thereby increasing assurance that the hours reported reflect the actual work
performed.

Overtime and Compensatory Time
NGA supervisors did not properly preauthorize overtime or compensatory time
worked by 16 of the 17 employees who worked such hours. In addition, NGA
timekeepers did not identify the lack of authorizing documents as a deficiency.
DoD Regulation 7000.14-R states that supervisors should approve any overtime or
compensatory time before the hours are worked, if feasible. Overtime and compensatory
time authorizations must be documented in writing or electronically and kept available
for audit. In addition, DoD Regulation 7000.14-R requires that timekeepers ensure that
overtime and compensatory time are properly authorized. The prior authorization of
overtime and compensatory time allows supervisors to reduce the potential for fraud and
abuse by ensuring that work demands warrant employees working additional hours and
by limiting the number of hours employees are authorized to work. NGA should develop
and implement procedures that make supervisors and timekeepers fully aware of the
authorization and documentation requirements for overtime and compensatory time.

Leave Authorizations
NGA did not have effective procedures for employee certification of leave charges. DoD
Regulation 7000.14-R requires that employees officially certify charges to their leave
balances. However, NGA timekeepers charged the leave balances of 10 of the
30 employees in our sample without any documentation signed by the employee. Proper
verification ensures that employees agree with the leave reported on the time and
attendance reports and minimizes the risk of future disputes regarding the accuracy of the
leave charges. NGA should develop and implement procedures requiring all employees
to certify their leave charges.

Timesheet Reconciliations
DoD Regulation 7000.14-R requires that personnel engaged in pay and leave activities
identify and resolve inconsistencies in information submitted, processed, and reported
during the various pay cycles. However, the hours reported on the timesheets for 20 of
the 30 employees in our sample were not consistent with the hours reported in DCPS.
Some of the differences may have occurred because timekeepers adjusted the employees’
timesheets without returning the timesheets to the employees for correction. However,
the number and variety of other differences indicate significant control weaknesses.

Specifically, we identified the following:

   •   8 employees reported taking leave without having their leave balances charged,
   •   3 employees were charged leave when no leave was reported as taken,
   •   1 employee reported earning compensatory hours that were not paid,
   •   1 employee received compensatory hours that were not shown as worked,
   •   1 employee did not receive overtime pay for overtime hours reported,
   •   1 employee received overtime pay for hours that were not reported as overtime
       worked, and
   •   2 employees received Sunday premium pay when their timesheets did not report
       work on Sunday.

NGA must develop and implement reconciliation procedures to identify these types of
errors and ensure that proper corrective action is taken. At a minimum, the reconciliation
procedures should describe who is responsible for performing the reconciliations, how


                                             5
often the reconciliations should be performed, and how the reconciliations will be
documented. In addition, NGA should enforce its current instruction that requires
employees to verify the accuracy of their leave accounts and report any discrepancies to
the timekeepers.

Reconciliation of Personnel Records to DCPS
The administrative officers within the NGA directorates did not always promptly notify
human resources personnel of employee separations. As a result, human resources
personnel were unable to initiate actions to remove the separated employees from DCPS
in a timely manner. NGA payroll personnel provided us with a listing showing that
444 employees left NGA from October 2006 through October 2007. From this listing,
we selected a random sample of 10 employees to determine how quickly the employees
were removed from DCPS after their separation dates. Of the 10 employees selected for
review, 2 employees were in DCPS more than 50 days after separating from NGA, and
another 2 employees were in DCPS as NGA employees more than 150 days after
separating from the agency. Human resources personnel stated that they were working to
improve communication with the other directorates and encouraging the administrative
officers to update employee records in a timely manner. We did not identify any
payments to the separated employees in our sample. However, until NGA starts
removing separated employees from DCPS in a timely manner, there is a risk that the
separated employees could erroneously continue to receive pay and benefits.

Adequacy of Timekeeper Training
According to DoD Regulation 7000.14-R, all personnel engaged in pay and leave
activities must be adequately trained and kept informed about the requirements of laws
and regulations. As of November 5, 2007, there were 381 timekeepers at NGA. We
submitted a questionnaire to the 45 timekeepers who provided us with supporting
documentation throughout the audit to determine whether NGA had provided them with
adequate timekeeper training. Nine timekeepers responded that they had received formal
training on their timekeeping responsibilities.2 However, only two of the nine
timekeepers provided copies of training-completion certificates. Our review of the
training-completion certificates showed that the training was limited to DCPS security
issues. Improved training of timekeeping personnel could have prevented many of the
deficiencies identified throughout this audit. Timekeepers perform a vital control
function. While they are responsible for complete and accurate time and attendance
reporting, the scope of their responsibility extends to the prevention and detection of
improper payroll transactions resulting from fraud and abuse. As such, NGA must
provide necessary training to timekeepers to ensure that payroll disbursements are
properly authorized, adequately supported, and reasonably free from the risk of fraud and
abuse.

Availability of Supporting Documentation
On January 18, 2006, NGA issued a memorandum requiring all of its offices to become
familiar with the requirements of the Chief Financial Officers Act of 1990 and their role
in assisting NGA in obtaining an audit opinion. Specifically, the memorandum addresses
the issue of providing accurate and complete documentation on a timely basis. However,
we experienced significant delays when trying to obtain payroll documentation from
several NGA timekeepers. On December 18, 2007, we requested that the timekeepers


2
    We did not receive a response from 17 of the 45 timekeepers who received a questionnaire.


                                                       6
provide the time and attendance records for our sample of 30 NGA employees by
January 4, 2008. NGA provided the last of the requested documentation in June 2008.
During future audits of the NGA financial statements, external auditors will require
timely access to supporting documentation to evaluate the propriety of reported costs.
The absence of supporting documentation or delays in receiving requested information
prevents auditors from accomplishing their objectives and may result in scope limitations
that preclude a favorable audit opinion of the NGA financial statements.

Conclusion
We did not use statistical sampling techniques. Therefore, we are unable to project the
results of our analysis to the time and attendance reports for all NGA employees.
However, the number of discrepancies that we identified from a random sample of
employees indicates that significant and pervasive internal control weaknesses exist in
time and attendance reporting at NGA. Developing and implementing new procedures
are only the first steps toward strengthening controls over time and attendance reporting.
After the procedures are implemented, they will need to be tested to fully measure their
success. Until these deficiencies are corrected, NGA will have no assurance that its
payroll expenses and related time and attendance information are reliable and reasonably
free of potential fraud and abuse.

Recommendations, Client Comments, and Our
Response
A. We recommend that the Director, National Geospatial-Intelligence Agency:

      1. Notify all supervisors and timekeepers of the minimum timesheet data
elements and require that they be included on all employee timesheets.

       2. Require supervisors to review and approve time and attendance reports
and other supporting documents.

        3. Require employees to attest to the accuracy of hours reported on their
timesheets, including the number of leave hours taken, and enforce the current
policy that requires employees to verify the accuracy of their leave account
balances.

        4. Develop and implement procedures to notify supervisors and timekeepers
of the authorization and documentation requirements for overtime and
compensatory time.

      5. Develop and implement procedures requiring personnel to reconcile
employee timesheets to the Defense Civilian Pay System.


NGA Comments
The Director, NGA agreed with recommendations one through five. He stated that NGA
has drafted a document that will be distributed to NGA supervisors and timekeepers to
clearly identify the required documents and processes. NGA will also incorporate the
document into timekeeper training to ensure that the requirements are fully understood.
In addition, NGA will include these recommendations in the pending revisions of NGA



                                            7
Instruction (NI) 1402.1, “Leave and Other Absences,” and NI 1422.1, “Work Hours and
Overtime.”


Our Response
The Director, NGA comments were fully responsive to the recommendations.

      6. Establish procedures to ensure that separated employees are promptly
removed from the Defense Civilian Pay System.


NGA Comments
The Director, NGA agreed with the recommendation. He stated that NGA will address
the subject at the next quarterly meeting between administrative officers and the Human
Development Directorate to ensure that procedures are followed.

Our Response
The Director, NGA comments were responsive to the intent of our recommendation.

      7. Establish and implement a program to provide necessary training to
timekeepers.


NGA Comments
The Director, NGA agreed with the recommendation. He stated that NGA has developed
a training package that identifies and describes multiple sources of data that will be
beneficial to NGA timekeepers.


Our Response
The Director, NGA comments were fully responsive to the recommendation.

        8. Direct the National Geospatial-Intelligence Agency, Office of the Inspector
General to test the effectiveness of the procedures developed to correct deficiencies
identified in this report.


NGA Comments
The Director, NGA agreed with the recommendation. He stated that he will recommend
that the NGA Inspector General include payroll topics in its audit and inspection planning
process to test the effectiveness of procedures to correct identified deficiencies.


Our Response
The Director, NGA comments were fully responsive to the recommendation.




                                            8
Finding B. Overtime and Premium Pay
The National Geospatial-Intelligence Agency (NGA) has not established effective
controls related to overtime and premium pay. Our review of the overtime and premium
pay records for a judgmental sample of 20 NGA employees with significant amounts of
overtime showed that NGA did not:

      •    document employee regular work schedules to substantiate employee entitlements
           to Sunday premium and night differential,

      •    identify improper overtime and premium pay disbursements to NGA employees,
           including duplicate payments and payments to members of the Defense
           Intelligence Senior Level,

      •    implement procedures to restrict employee overtime earnings to the limitations
           established by public law, and

      •    formalize procedures for regularly monitoring the overtime hours reported by
           NGA deployed personnel.

Until these deficiencies are corrected, there is an increased risk that improper payments
will not be prevented and excessive overtime hours will not be detected.

Overtime Worked at NGA
From May 2007 through October 2007, 1,788 NGA employees worked a total
of 207,133 overtime hours. As a result, NGA incurred an additional $8.1 million in
payroll costs. The following table shows that the majority of NGA employees earned
less than $5,000 in overtime; however, some employees earned significantly more.

                         Table 2. Overtime Earnings of NGA Employees
                          Between May 1, 2007, and October 31, 2007
    Amount Earned                                                     Number of Employees
    Between $0 and $5,000                                                     1372
    Between $5,001 and $10,000                                                  181
    Between $10,001 and $20,000                                                 123
    Between $20,001 and $30,000                                                  63
    Between $30,001 and $40,000                                                  34
    Between $40,001 and $50,000                                                  13
    More Than $50,000                                                             2

As the table shows, several NGA employees earned substantial amounts of overtime. 3
However, NGA lacked effective controls related to overtime and other premium pay,



3
    The large amounts of overtime were earned primarily by employees deployed to Iraq and Afghanistan.


                                                     9
which increased the risk that improper payments would not be prevented and excessive
overtime hours would not be detected.

Controls Related to Premium Pay Entitlements
We judgmentally selected a sample of 20 NGA employees, who collectively received
$202,506.18 in premium payments between May 2007 and October 2007, to evaluate
NGA controls over the use of premium pay. Our sample included the 10 NGA
employees who earned the highest amounts of premium pay within a pay period. Our
sample also included 10 employees who were not compensated for premium pay reported
on their time and attendance reports. Most of our sample was made up of personnel
deployed to the Middle East, who would reasonably be expected to work large amounts
of overtime to meet wartime mission requirements. However, our review of the time and
attendance records for these employees revealed the following control weaknesses related
to premium pay entitlements.

Employee Work Schedules
We were unable to determine whether 13 employees in our sample who earned Sunday
premium and night differential were entitled to those payments, because the employees’
regular work schedules were not documented, as required by NGA
Instruction 1422.1R10. Employees are entitled to Sunday premium and night differential
only if they are regularly scheduled to work during the premium and night differential
hours specified in the Code of Federal Regulations. Regularly scheduled overtime hours
must also be documented, because they may affect an employee’s entitlement to night
differential. The employees in our sample were paid for 1,243 hours of Sunday premium,
totaling $18,529.14, and 4,041 hours of night differential, totaling $22,868.62. In order
for NGA to ensure that personnel are being accurately compensated for premium hours
worked, NGA must enforce its current policy requiring supervisors to establish and
retain, in writing, the employees’ regular work schedules, including hours of duty, shift
tours of duty, and overtime.

Duplicate Payments
NGA had not established the controls necessary to prevent and detect duplicate payments
for premium pay. As a result, one employee in our sample received duplicate payments
totaling $11,777.58 for overtime, holiday premium, and night differential. Initially, NGA
personnel stated that a duplicate payment could not have occurred because DCPS
controls would have prohibited the timekeeper from processing a duplicate payment.
However, at our request the Defense Finance and Accounting Service (DFAS) conducted
an audit of the employee’s pay history and agreed with our analysis. As of May 2008,
NGA had still not determined how the duplicate payment occurred; however, the
duplicate payment appears to be the result of an adjustment for work performed in a prior
pay period. NGA should develop procedures to ensure that its payroll system is
functioning properly and employees are only paid for the hours they work. Specifically,
to prevent duplicate payments from occurring, NGA should instruct timekeepers to
review previous time and attendance records before processing adjustments. NGA began
recovering the duplicate payment in June 2008.

Premium Pay Limitations
Public Law 109-163 prohibits deployed personnel’s aggregate basic pay and premium
pay from exceeding $212,100 per year. NGA had not established procedures prohibiting
deployed personnel from earning premium pay above the limits established by Public
Law 109-163. As a result, NGA could not compensate one employee in our sample for


                                           10
$21,530.11 in premium payments that he earned from November 2007 through
December 2007. Section 1342, title 31, United States Code, prohibits Government
officials from accepting uncompensated services in most cases except emergencies.
NGA should establish procedures to ensure that employees can be compensated for all
authorized premium pay earned. Specifically, NGA should ensure that employees and
supervisors are aware of the premium pay limitations and promptly notify employees
when they are approaching the limits.

Premium Pay to Defense Intelligence Senior Level
Members
Although NGA Instruction 1404.3R5 prohibits members of the Defense Intelligence
Senior Level 4 (DISL) from being compensated for premium pay, we identified one DISL
member who received overtime pay for hours worked. NGA personnel stated that they
were aware that the DISL member had inappropriately received the premium payments,
and they were working with DFAS debt collection to recover the money. NGA personnel
confirmed that at least one other DISL member had also inappropriately received
premium pay. NGA personnel stated that they had tried to change the DCPS coding to
prohibit timekeepers from inputting premium hours for DISL members; however, the
coding change caused other problems within the system. NGA should notify all DISL
members and their timekeepers that NGA policy prohibits DISL members from earning
premium pay. In addition, NGA should perform periodic reviews of the payroll system
to identify any improper payments to DISL members and take action to recover any
improper payments identified. In April 2008, the DISL member finalized a payment plan
to return $60,153.41 in overtime pay.

Overtime Earned by Deployed Personnel
NGA controls over time and attendance reporting for deployed personnel may not
effectively prevent and detect unreasonable, excessive, and potentially improper overtime
hours. Deployed personnel often reported working an average of 13 hours to 15 hours a
day, and it was not uncommon for personnel to report working an average of 16 hours to
18 hours a day, including weekends. While some deployed personnel reported the
extensive overtime hours for only a few pay periods, others reported extensive hours for
longer periods of time. For example, one NGA employee deployed to Iraq reported
working 16 hours a day, including weekends, for 7 consecutive pay periods — almost the
entire duration of his deployment. The overtime costs for deployed personnel totaled
$4.5 million, which represents 56 percent of the total overtime costs incurred by NGA
during the period covered by our review.

Although NGA has implemented some policies and procedures to monitor the amount of
overtime worked by deployed personnel, NGA supervisors and oversight officials did not
consistently follow the policies and procedures. NGA supervisors must comply with
NGA standard operating procedures and properly authorize the overtime hours worked
by deployed personnel. In addition, NGA should formalize and consistently enforce its
procedures for monitoring the overtime worked by deployed personnel, including how
often reviews should be performed and how corrective actions should be documented.
We fully recognize that deployed personnel need to work a substantial amount of
overtime hours to meet the wartime mission requirements. However, the number of


4
 NGA defines DISL members as employees above the GS-15 level who have functional expertise in a
particular area.


                                                11
overtime hours must be properly approved and regularly monitored to ensure that the
hours and their related costs are reasonable and necessary.

Recommendations, Client Comments, and Our
Response
B. We recommend that the Director, National Geospatial-Intelligence Agency:

       1. Enforce current policy requiring supervisors to establish and retain, in
writing, employee regular work schedules, including hours of duty, shift tours of
duty, and overtime.


NGA Comments
The Director, NGA agreed with the recommendation. He stated that NGA will enforce
current policy requiring supervisors to establish and retain, in writing, employee regular
scheduled hours, including hours of duty, shift tours of duty, and overtime. He also
stated that NGA will include this recommendation in the pending revisions of NI 1402.1,
“Leave and Other Absences,” and NI 1422.1, “Work Hours and Overtime.”


Our Response
The Director, NGA comments were fully responsive to the recommendation.

       2. Instruct timekeepers to review previous time and attendance records
before processing adjustments, to prevent future duplicate payments from
occurring.

      3. Notify all Defense Intelligence Senior Level members and their
timekeepers that NGA policy prohibits Defense Intelligence Senior Level members
from earning premium pay.


NGA Comments
The Director, NGA agreed with recommendations two and three. He stated that NGA
will communicate the information from the recommendations to all timekeepers in
writing and will include it in the timekeeper training package. He also stated that NGA is
modifying the 2008 Defense Intelligence Senior Level/Defense Intelligence Senior
Executive Service/Senior Executive Service pay chart to add a remark that senior
executive employees are excluded from premium pay.


Our Response
The Director, NGA comments were fully responsive to the recommendations.

        4. Ensure that employees and supervisors are aware of the premium pay
limitations and notify employees when they are approaching the limit.




                                            12
NGA Comments
The Director, NGA agreed with the recommendation. He stated that NGA has drafted a
“Limitations on Pay” document, which is available to employees on the NGA Human
Development Web site. He stated that the document is also briefed to employees in
preparation for deployment.


Our Response
The Director, NGA comments were fully responsive to the recommendation.

      5. Perform periodic reviews of the payroll system to identify any improper
payments to Defense Intelligence Senior Level members and take action to recover
any improper payments identified.


NGA Comments
The Director, NGA agreed with the recommendation. He stated that NGA will perform
semiannual reviews of DISL premium pay and will work with the DFAS payroll office to
initiate debt and collection action as necessary.


Our Response
The Director, NGA comments were fully responsive to the recommendation.

       6. Formalize procedures for regularly monitoring the overtime hours
reported by deployed NGA personnel.


NGA Comments
The Director, NGA agreed with the recommendation. He stated that NGA will include
this recommendation in the pending revisions of NI 1402.1, “Leave and Other
Absences,” and NI 1422.1, “Work Hours and Overtime.”


Our Response
The Director, NGA comments were fully responsive to the recommendation.




                                         13
Appendix A. Scope and Methodology
We conducted this financial-related audit from September 2007 through July 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. Evidence was obtained through the following
tasks.

       •   We obtained and reviewed DoD, U.S. Treasury, Government Accountability
           Office, and NGA guidance related to time and attendance reporting.

       •   We randomly selected a sample of 30 employees who were reported in the
           payroll records on October 31, 2007, to determine whether their time and
           attendance reports were adequately documented, appropriately authorized, and
           properly reconciled to DCPS. For the 30 employees in our sample, we
           reviewed the time and attendance reports for the 8 biweekly pay periods from
           August 4, 2007, through November 10, 2007. We obtained and reviewed the
           following supporting documents for each of the 8 biweekly pay periods:

                  timesheets,

                  leave requests and other approving documents,

                  DCPS time and attendance reports, and

                  leave and earnings records.

       •   We developed a standardized review sheet that allowed us to determine
           whether the supporting documentation provided by NGA was complete and in
           compliance with DoD and NGA guidance. The review sheet also allowed us
           to determine whether NGA payroll personnel accurately entered the hours
           reported on the timesheets into DCPS.

       •   We obtained a listing of all NGA personnel who received overtime between
           May 1, 2007 and October 31, 2007. From this listing, we judgmentally
           selected a sample of 20 NGA employees. We reviewed the 20 sample
           employees’ leave and earning records for 8 biweekly pay periods beginning
           August 4, 2007, through November 10, 2007 to determine whether the
           employees’ overtime and premium pay earnings were within the limits
           established by the Office of Personnel Management.

       •   We interviewed NGA payroll personnel and personnel within the NGA
           Human Development Directorate to gain an understanding of the procedures
           used to record and process time and attendance information. We also met
           with NGA Office of Global Support personnel to discuss the time and
           attendance policies for deployed personnel. Finally, we met with an NGA
           timekeeper to observe the process for entering an employee’s time and
           attendance information into DCPS.

       •   We developed a questionnaire that was sent to 45 NGA timekeepers to
           determine whether NGA had provided adequate training to timekeeping


                                           15
          personnel. The questionnaire also contained questions regarding time and
          attendance documentation and authorization requirements, as well as
          reconciliation procedures.

The Government Accountability Office has identified several high-risk areas in DoD.
This report provides coverage of the Financial Management high-risk area.

Use of Computer-Processed Data
We obtained listings of NGA personnel from PeopleSoft and their related payroll
transactions from DCPS. DoD IG Report No. D-2007-133, “Defense Civilian Pay
System Controls Placed in Operation and Tests of Operating Effectiveness for the Period
of July 1, 2006 Through June 30, 2007,” September 28, 2007, assesses controls over the
DCPS processes at the Defense Finance and Accounting Service and the Defense
Information Systems Agency. The report provides an opinion on the fairness of
presentation, the adequacy of design, and the operating effectiveness of key controls
relevant to audits of user organizations’ financial statements.

Prior Coverage
No prior coverage has been conducted on payroll and related transactions at NGA during
the last 5 years.




                                          16
National Geospatial-Intelligence Agency Comments


                                                                                                            Final Report
                                                                                                             Reference

                                                                                                                 *




                                     Click to add JPEG file




*The National Geospatial-Intelligence Agency agreed to the removal of all For Official Use Only markings.
                                                               17
Click to add JPEG file




               18
Click to add JPEG file




               19
Click to add JPEG file




               20
Click to add JPEG file




               21
